                           CLOSEOUT MEMO M01030010

        The National Science Foundation @SF) Office of Inspector General (OIG)
received an allegation of plagiarism against a PI.' The PI was funded by an NSF
             award.2 The complainant: a former collaborator, alleges that a figure in the
PI's published paper (paper #I)' contains the same data as two figures from his paper
(paper #2).' He also alleges that the PI fabricated data in one figure.
        Upon review, the figure in paper #I is remarkably similar to two figures in paper
#2. The figure in paper #1 does contain the same data as the figure in paper #2 without
reference to the published work of the complainant. However, the data reported in the
two papers was collected while the complainant was working as a visiting scientist in the
PI's laboratory. The laboratory notebook of the PI does contain the data described in the
figures of both paper #1 and paper #2. Further, a graduate student6in the PI's lab
collected the data for both papers. Also, the two papers report the same data, but the
interpretation of that data in paper #1 and paper #2 are different, thus the two papers
present incongruous conclusions.
        This allegation is the result of a collaboration that has dissolved. The PI, the
complainant, as well as the PI's graduate student contributed to the collection of the data
and each retain rights to discuss and publish the data because they played a role in
creating the data. Therefore, the PI and the graduate student are not required to cite the
published work of the complainant; although, an acceptable professional standard would
have been for the PI to cite the published work of the complainant to provide readers with
a complete delineation of the research record.
        The allegation is unsupported, therefore we close this inquiry and no further
action will be taken.

cc: Investigations, IG




1
    Redacted
    Redacted
    Redacted
    Redacted
    Redacted
    Redacted


                                        Page 1 of 1
